STATE OF CONNECTICUT
APPELLATE COURT

Date: Hartford, March 3, 2020
To the Chief Clerk of the Appellate Court.

The Appellate Court has decided the following case:

CHESWOLD (TL), LLC, BMO HARRIS BANK, N.A.
Opinion by Pellegrino, J.

v.

MATTHEW J. KWONG ET AL.

Docket No. AC 42221
Trial Court Docket No. DBDCV156017197S

The judgment is affirmed and the case is remanded for the purpose of setting a
new sale date.

(

Rescript

APPENDIX A

Chief Judge.

5j< if: >jc ^ * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * * *

The “officially released” date that appears near the be­
ginning of each opinion is the date the opinion will be pub­
lished in the Connecticut Law Journal or the date it was
released as a slip opinion. The operative date for the be­
ginning of all time periods for filing postopinion motions
and petitions for certification is the “officially released”
date appearing in the opinion.
All opinions are subject to modification and technical
correction prior to official publication in the Connecticut
Reports and Connecticut Appellate Reports. In the event of
discrepancies between the advance release version of an
opinion and the latest version appearing in the Connecticut
Law Journal and subsequently in the Connecticut Reports
or Connecticut Appellate Reports, the latest version is to
be considered authoritative.
The syllabus and procedural history accompanying the
opinion as it appears in the Connecticut Law Journal and
bound volumes of official reports are copyrighted by the
Secretary of the State, State of Connecticut, and may not
be reproduced and distributed without the express written
permission of the Commission on Official Legal Publica­
tions, Judicial Branch, State of Connecticut.
*ij<;jt:}cijs:fcj5<;jc**** ********* **************************

CHESWOLD (TL), LLC, BMO HARRIS BANK, N.A. v.
MATTHEW J. KWONG ET AL.
(AC 42221)
Alvord, Devlin and Pellegrino, Js.
Syllabus
The plaintiff, C Co., sought to foreclose municipal tax liens on certain real
property owned by the defendant K. Following K’s failure to pay his
property taxes for a number of year s, tire town of Newtown imposed
liens on the subject property and recorded them on the town land
records. Thereafter, the tax liens were assigned to C Co., which recorded
the assignment on the town land records. After C Co. had commenced
this action, it assigned the tax liens to A Co., which was substituted as
the plaintiff. The assignment to A Co. was not recorded on the town
land records. K thereafter moved to dismiss the action for lack of subject
matter jurisdiction on the ground that A Co. lacked standing to foreclose
the property because the assignment of the tax liens to it was not
recorded. The trial court denied K’s motion to dismiss, concluding that
A Co.’s failure to record the assignment did not deprive it of standing.
Thereafter, the trial court rendered a judgment of foreclosure by sale,
from which K appealed to this court. Held that the trial court properly
denied K’s motion to dismiss, as that court correctly determined that
A Co. had standing to pursue the foreclosure action; contrary to K’s
claim, A Co.’s failure to record the assignment of the tax liens on the
town land records did not deprive it of standing, as the more specific
statute (§ 12-195h) and rule of practice (§ 30-70) governing the assign­
ment. and foreclosure of tax liens, which do not require recordation to
confer standing, take precedence over the more general land transfer
statute (§47-10), which does require it, and, furthermore, a tax lien,
similar to a mechanic’s lien, is more analogous to a transfer of debt
than to a transfer of title and, as such, is not considered a conveyance
under §47-10.
Argued November 18, 2019—officially released March 3, 2020
Procedural- History

Action to foreclose municipal tax liens on certain
real property owned by the named defendant, and for
other relief, brought to the Superior Court in the judicial
district of Danbury, where the defendant Capitol One
Bank (USA), N.A., et al. were defaulted for failure to
appear; thereafter, ATCF REO Holdings, LLC, was sub­
stituted as tire plaintiff; subsequently, the court, Mintz,
J., denied the named defendant’s motion to dismiss and
rendered a judgment of foreclose by sale, from which
the named defendant appealed to this court. Affirmed.
Matthew J. Kwong, self-represented, the appellant
(named defendant).
David L. Gussak, for the appellee (substitute
plaintiff).

A'3

Opinion

PELLEGRINO, J. The self-represented defendant,
Matthew J. Kwong,1 appeals from the trial court’s judg­
ment of foreclosure by sale of his property located at
9 Bradley Lane in the village of Sandy Hook in Newtown
(property). He claims that the court erred in denying
his motion to dismiss for lack of subject matter jurisdic­
tion on the ground that the substituted plaintiff, ATCF
REO Holdings, LLC (ATCF),2 lacked standing to fore­
close the property because the assignment of certain
municipal tax liens to ATCF was not recorded on the
Newtown land records. Accordingly, the principal issue
in this appeal is whether the assignment of a municipal
tax lien is required to be recorded on the land records
in order for the assignee to have standing to foreclose
the property, which is an issue of first impression for
this court;. For the following reasons, we conclude that
such recording is not required and affirm the judgment
of the trial court.
The following undisputed facts are relevant to our
disposition of this appeal. From 2009 to 2014, the defen­
dant failed to pay municipal taxes to the town of New­
town (town). As a result, the tow imposed tax liens
on the defendant’s property and recorded them on the
town’s land records. The town then assigned the tax
liens to American Tax Funding, LLC, and recorded tire
assignment on the land records. The tax liens were then
assigned to Cheswold (TL), LLC, BMO Harris Bank,
N.A. (Cheswold), which recorded the assignment.
On April 6, 2015, Cheswold commenced this foreclo­
sure action. On May 8,2015, Cheswold filed a motion for
default against the defendant for lus failure to appear,
winch the court granted. At that point, the defendant
had not yet filed an appearance in tire case. Cheswold
subsequently filed a motion for a judgment of strict
foreclosure. The trial court rendered a judgment of fore­
closure by sale and set a sale date. The defendant filed
an appearance on August 24, 2015, and, thereafter, filed
a motion to open and vacate the judgment, which the
trial, court granted.
While the case was pending, Cheswold assigned the
tax liens to ATCF. Tire assignment was not recorded
on the town land records. Cheswold then filed a motion
to substitute ATCF as a party plaintiff in this case. The
trial court granted the motion and substituted ATCF as
the party plaintiff. Thereafter, ATCF filed a motion for
default as to the defendant for failure to plead, which
the trial court denied.
Following tire denial of tire motion for default, ATCF
filed a motion for a judgment of strict foreclosure. At
the April 26, 2018 hearing on the foreclosure motion,
the defendant, by oral motion, sought to dismiss the
action for lack of standing because ATCF failed to
record the assignment of the tax liens. The trial court,

A-A

• .J

Minlz, J., faced with a question of subject matter juris­
diction, suspended the hearing and gave both parties
an opportunity to file briefs on the issue of whether
the assignment of the tax liens to ATCF must be
recorded on the town land records in order for the
substituted plaintiff to have standing to foreclose the
liens, as argued by the defendant. In response, the par­
ties stipulated that if the-motion to dismiss was denied,
then the action would be disposed of by a foreclosure
by sale in accordance with the findings that the parties
had agreed on.3 On September 14, 2018, the trial court
denied (lie defendant’s motion to dismiss, finding that
there was no requirement that the assignment be
recorded on tire town land records. Consequently, the
court rendered a judgment of foreclosure by sale and
set a sale date of March 9, 2019. This appeal foDowed.
On appeal, the defendant claims that the trial court
improperly found that ATCF had standing to pursue
the foreclosure action because the assignment of the
tax liens on the defendant’s property had not been
recorded on tire town land records.
We begin by setting forth tire well established stan­
dard of review. “Standing is the legal right to set judicial
machinery in motion. One cannot rightfully invoke the
jurisdiction of the court unless he [or she) has, in an
individual or representative capacity, some real interest
in the cause of action, or a legal or equitable right, title
or interest in the subject matter of the controversy.
. . . Where a party is found to lack standing, tire court
is consequently without subject matter jurisdiction to
determine the cause. . . . Our review of this question
of law is plenary.” (Citations omitted; internal quotation
marks omitted.) J.E. Robert Co. v. Signature Proper­
ties, LLC, 309 Conn. 307, 318, 71 A.3d 492 (2013). “In
ruling [on] whether a complaint survives a motion to
dismiss, a court must take the facts to be those alleged in
the complaint, including those facts necessarily implied
from tire allegations, construing them in a manner most
favorable to the pleader. . . . If . . . the plaintiffs
standing does not adequately appear from all materials
of record, the complaint must be dismissed.” (Citation
omitted; internal quotation marks omitted.) Burton v.
Dominion Nuclear Connecticut, Inc., 300 Conn. 542,
550, 23 A.3d 1176 (2011).
This is a case of first impression. The sole issue before
this court is whether the trial court erred in denying
the defendant’s motion to dismiss for ATCF’s alleged
lack of standing. The defendant maintains that ATCF
lacks standing to foreclose tire property because the
assignment of the tax liens was not recorded. The defen­
dant contends that General Statutes § 47-10,4 tire land
transfer recordation statute, requires that all “convey­
ances” be recorded in order to be effective and that
tax liens are “conveyances” for the purposes of that
statute. ATCF disagrees, arguing that Practice Book

§ 10-70, which governs the foreclosures of municipal
tax liens, and General Statutes § 12-195h, detailing the
rights and obligations of assignees of municipal tax
liens, are the “prevailing and controlling authority, nei­
ther of which impose the requirement that an assign­
ment of tire tax lien must be recorded in order to main­
tain a foreclosure action of lire hen.”
In its memorandum of decision, tire trial court cited
this court’s decision in Astoria Federal Mortgage Corp.
v. Genesis Ltd. Partnership, 167 Conn. App. 183, 143
A.3d 1121 (2016), which addressed a similar issue in the
context of a mechanic's hen. hr that case, tire defendant
appealed, claiming that the trial court improperly con­
cluded that the defendant lacked standing to foreclose a
mechanic's hen, which was otherwise validly assigned,
because tire assignment of the hen was not recorded.
Id., 185. This court reversed tire judgment concluding
that the trial court incorrectly had applied tire recorda­
tion requirements of § 47-10. Id., 202. This court,
applying principles of statutory interpretation, deter­
mined that the more specific statutes governing
mechanic’s hens, which did not require recordation,
should apply over more general statutes governing
transfers of title, which required recordation, namely,
§ 47-10.5 Id., 199.
The court in Astoria Federal, Mortgage Corp. further
determined that the assignment of a mechanic’s lien
was more akin to a transfer of debt than to a transfer
of tide. Id., 201. It relied on General Statutes § 49-33
(i), which provides that “[a]ny mechanic’s hen may be
foreclosed in die same manner as a mortgage.” See
Astoria, Federal, Mortgage Corp. v. Genesis Ltd. Part­
nership, supra, 167 Conn.. App. 200. This court
explained tiiat mortgage foreclosures are governed by
General Statutes § 49-17, which provides that “a valid
assignee of a mortgage note has standing to foreclose
irrespective of whether tiiat assignee records die assign­
ment prior to instituting the action. ” Id., 202. In addition,
this court concluded that “the failure of an assignee of
a mechanic’s hen to record an otherwise valid assign­
ment of the hen does not deprive the assignee of the
hen of standing to commence a foreclosure action.”
Id., 204.
Relying on Astoria Federal Mortgage Corp., the trial
court hi die present case determined that ATCF did
not lack standing to foreclose for failure to record the
assignment of die municipal tax hens. The trial court
stated that the specific procedures governing die fore­
closure of tax liens, found hi General Statutes § 12195hG and Practice Book § 10-70,7 do not contain any
requirement that the assignment of a tax hen be
recorded in order for the owner of the hen to have
standing to foreclose. Further, the trial court concluded
tiiat the assignment of a tax hen, similar to that of a
mechanic’s hen, is more closely akin to the assignment

A-6

of a mortgage rather than a conveyance of title and
that, as such, the failure to record the assignment is
not fatal to standing.
On the basis of our review, we agree with the trial
court’s analysis and conclusion that; the assignee’s fail­
ure to record tire assignment of a tax lien does not
deprive it of standing to bring a foreclosure action. As
in Astoria Federal Mortgage €01%, we conclude that
the more specific statutes governing tax liens, which
do not require recordation, should take precedence
over the more general land transfer statutes, which do
require it. Here, § 12-195h and Practice Book § 10-70
control both the assignment and foreclosure of munici­
pal tax liens. They do not require that the assignment
of liens be recorded to confer standing. Further, we
agree with lire trial court that a tax lien, similar- to a
mechanic’s hen, is more analogous to a transfer of debt
than to a transfer of title and, as such, is not considered
a “conveyance” under § 47-10. Therefore, we conclude
that the trial court properly denied lire defendant’s
motion to dismiss and rendered judgment of foreclosure
by sale in accordance with tire findings as stipulated
by the parties.
The judgment is affirmed and the case is remanded
for the purpose of setting a new sale date.
In this opinion the other judges concurred.
1 Capitol One Bank (USA), N.A., and Portfolio Recovery Associates, LLC,
were named as defendants in this case as subsequent encumbrancers in
interest. Neither of these defendants is a parti' to this appeal. We therefore
refer in this opinion to Kwong as the defendant.
2 The original plaintiff in this case, Cheswold (TL), LLC, BMO Harris Bank,
N.A, filed a motion to substitute ATCF as the party plaintiff, which was
granted by the trial court.
The trial court rendered the judgment of foreclosure by sale with the
following agreed on findings: “Debt: $61,264.03 as of [September 13, 2018)”;
“Attorney’s Fees: $5850"; “Total: $67,114.03”; "Appraisal Fee: $700”; “Title
Search Fee: $225”; "Fair Market Value: $160,000”; “Land: $75,000”; and
“Improvements: $85,000.”
2 General Statutes § 47-10 (a) provides: “No conveyance shall be effectual
to hold any land against any other person but the grantor and his heirs,
unless recorded on the records of the town in which the land lies. When a
conveyance is executed by a power of attorney, the power of attorney shall
be recorded with the deed, unless it has already been recorded in the records
of the town in which the land lies and reference to the power of attorney
is made in the deed.”
6 This court explained: “In conducting this inquiry, we are guided by the
statutory interpretation principle that specific terms covering the given
subject matter will prevail over general language of the same or another
statute which might otherwise prove controlling. . . . The provisions of
one statute which specifically focus on a particular problem will always, in
the absence of express contrary legislative intent, be held to prevail over
provisions of a different statute more general in its coverage.” (Internal
quotation marks omitted.) Astoria. Federal. Mortgage Corp. v. Genesis Ltd.
Partnership, supra, 167 Conn. App. 199.
G General Statutes § 12-195h provides in relevant part: “Any municipality
. . . may assign . . . any and all liens filed by the tax collector ... .
[and] the assignee or assignees of such liens shall have and possess the
same powers and rights at law or in equity as such municipality . . . would
have had if the lien had not been assigned with regard to the precedence
and priority of such lien, the accrual of interest and the fees and expenses
of collection and of preparing and recording the assignment. The assignee
shall have the same rights to enforce such liens as any private party holding

A-7

a lien on real property including, but not limited to, foreclosure and a suit
on the debt. . .
’Practice Book § 10-70 (a) provides in relevant part: “In any action to
foreclose a municipal tax or assessment lien the plaintiff need only allege
and prove: (1) the ownership of the liened premises on the date when the
same went into the tax list, or when said assessment was made; (2) that
thereafter a tax in the amount specified in the list, or such assessment in
the amount made, was duly and properly assessed upon the property and
became due and payable . . . (4) that no part of the same has been paid;
and (5) other encumbrances as required by the preceding section.”

ORDER 407901
DOCKET NO: DBDCV156017197S

SUPERIOR COURT

CHESWOLD (TL), LLC, BMO HARRIS
BANK, NA
V.
KWONG, MATTHEW J Et A1

JUDICIAL DISTRICT OF DANBURY
AT DANBURY
9/14/2018

ORDER

The following order is entered in the above matter:
ORDER:
The matter having been heard by the court, the defendant's oral Motion to Dismiss is denied. A
judgment of foreclosure by sale shall enter pursuant to the Memorandum of Decision dated September
14, 2018.
JDNO-Notice of filing of memorandum of decision-9/14/18
407901
Judge: DOUGLAS C MINTZ
Processed by: Robin J. Smith

APPENDIX B

DBDCV156017197S

9/14/2018

Page 1 of 1

DBD CV15-6017197-S

SUPERIOR COURT

CHESWOLD (TL), LLC, BMO
HARRIS BANK, NA AND ATCF
REO HOLDINGS, LLC

JUDICIAL DISTRICT

V.

OF DANBURY

MATTHEW J KWONG, CAPITOL
ONE BANK (USA) NA, AND
PORTFOLIO RECOVERY
ASSOCIATES, LLC

SEPTEMBER 14,2018

MEMORANDUM OF DECISION
The substituted plaintiff in this action, ATCF REO Holdings, LLC (ATCF), seeks to
foreclose on tax liens levied against the real property of the defendant, Matthew Kwong. The
defendant is the owner of the property located in the village of Sandy Hook, town of Newtown,
known as 9 Bradley Lane, Sandy Hook, Connecticut 06482 (property).
On April 26,2018, the parties appeared at a trial of this action. At that time, the
defendant made an oral motion to dismiss, alleging that ATCF did not have standing to proceed
to judgment, because the assignment of the tax liens from Cheswold (TL), LLC, BMO Harris
Bank, NA (Cheswold) to ATCF had not been recorded. Because the defendant raised a question
regarding the court’s subject matter jurisdiction by way of his oral motion to dismiss, the court
must first consider that motion. “Once the question of subject matter jurisdiction has been
raised, cognizance of it must be taken and the matter passed upon before [the court] can move
one further step in the cause; as any movement is necessarily the exercise of jurisdiction.”
(Internal quotation marks omitted.) Schaghticoke Tribal Nation v. Harrison, 264 Conn. 829, 839

§3
i it
w0<3'0
M eg
^ 12-

n.6 (2003).

■

^ §1)
Ce

o

f "fl

«£.
Robin J. Smith
Deputy Chief Clerk

(J <A/

S' |

M

ciwS2'

cr
05

(X'

\

-

The basis of the defendant’s motion is that General Statutes § 47-10 mandates that all
“conveyances” be recorded to be effective, and an assignment of a tax lien should be considered
a “conveyance.” ATCF disagrees, arguing that Practice Book § 10-70, dealing with foreclosure
of municipal tax liens, is silent on any requirement as to the recording of an assignment of tax
liens. ATCF also argues that General Statutes § 49-17 permits foreclosure of a debt by an owner
without legal title, and should apply to tax liens under the rationale of Astoria Federal Mortgage
Corp. v. Genesis Ltd. Partnership, 167 Conn. App. 183 (2016).
The following facts and procedural history are relevant to this decision and are not in
dispute. From 2009 through 2014, the defendant failed to pay property taxes on the property to
the town of Newtown (town), and the town recorded tax liens on the Newtown Land Records.
Thereafter, the town assigned each of these liens to Cheswold, and these assignments were also
recorded on the Newtown Land Records. Cheswold commenced this tax lien foreclosure action
on April 6, 2015. The complaint, which was amended on June 12, 2017, alleges six counts for
foreclosure of the tax liens.
In July, 2017, Cheswold filed, and the court granted, a motion to substitute ATCF as
plaintiff on the ground that Cheswold had sold and transferred the tax liens to ATCF. The
motion to substitute attached a copy of the assignment of tax liens, indicating that the liens had
been assigned to ATCF on March 24,2017. Notably, the assignment of tax liens does not
indicate that it has been recorded on the appropriate land records, nor does ATCF allege that it
has ever been recorded.
“[A] motion to dismiss . .. properly attacks the jurisdiction of the court, essentially
asserting that the plaintiff cannot as a matter of law and fact state a cause of action that should be
heard by the court.” (Internal quotation marks omitted.) Santorso v. Bristol Hospital, 308 Conn.

2

338,350 (2013). “[B]ecause the issue of standing implicates subject matter jurisdiction, it may
be a proper basis for granting a motion to dismiss.” Electrical Contractors, Inc. v. Dept, of
Education, 303 Conn. 402,413 (2012). “If... the plaintiffs standing does not adequately
appear from all materials of record, the complaint must be dismissed.” (Internal quotation marks
omitted.) Burton v. Dominion Nuclear Connecticut, Inc., 300 Conn. 542, 550 (2011).
The single question of law currently before this court is whether ATCF’s failure to record
the assignment of tax liens deprives it of standing to foreclose. This appears to be a matter of
first impression in Connecticut: The procedures governing the assignment and foreclosure of tax
liens are found in General Statutes § 12-195h and Practice Book § 10-70, neither of which
(

specify whether the assignment of a tax lien must be recorded as a prerequisite to having
standing to pursue a foreclosure action. Section 12-195h provides in relevant part “Any
municipality... may assign ... any and all liens filed by the tax collector ... [and] [t]he
assignee or assignees of such liens shall have and possess the same powers and rights at law or in
equity as such municipality ... would have had if the lien had not been assigned with regard to
the precedence and priority of such lien, the accrual of interest and the fees and expenses of
collection and of preparing and recording the assignment. The assignee shall have the same
rights to enforce such liens as any private party holding a lien on real property including, but not
limited to, foreclosure and a suit on the debt....” Practice Book § 10-70 (a) provides in relevant
part: “In any action to foreclose a municipal tax or assessment lien the plaintiff need only allege
r

and prove: (1) the ownership of the liened premises on the date when the same went into the tax
list, or when said assessment was made; (2) that thereafter a tax in the amount specified in the
list, or such assessment in the amount made, was duly and properly assessed upon the property
and became due and payable ... (4) that no part of the same has been paid; and (5) other

3

encumbrances as required by the preceding section.” Other than certain required allegations
specific to a tax lien, “there is no distinction in form between actions to [foreclose] municipal tax
liens and actions to foreclose other liens. The foreclosure procedures are the same.” Middletown
v. P&G Enterprises Ltd. Partnership, 45 Conn. Supp. 435, 440 (1998).
Although there exists no case law directly on point, as both parties note in their briefs,
our Appellate Court addressed a similar issue relating to standing to foreclose on a mechanic’s
lien in Astoria Federal Mortgage Corp. v. Genesis Ltd. Partnership, supra, 167 Conn. App. 183 .
In Astoria, the mortgagee filed a foreclosure action against both the borrower, Genesis Limited
Partnership, and Professional Services Group, Inc. (PSG), which held a mechanic’s lien on the
property. Id., 185. After the commencement of litigation, PSG assigned its mechanics lien to a
third party, which assignment was duly recorded in the appropriate land records. Id., 186. Later,
the third party assigned the mechanic’s lien back to PSG, but this assignment was not recorded
until almost two years later. Id., 188. After the assignment back to PSG, but before such
assignment was recorded, PSG filed a cross claim against Genesis, seeking to foreclose'on the
mechanic’s lien. Id. The plaintiff filed a motion to dismiss PSG’s cross claim, arguing that at the
time it was filed, PSG had not recorded the re-assignment of the mechanic’s lien and therefore
did not have standing. Id., 188-89.
As a matter of first impression, the Astoria court reversed the trial court’s granting of the
motion to dismiss on the basis that the trial court improperly applied § 47-10 to the mechanic’s
lien. Id., 202. The court looked to the statutes dealing specifically with mechanic’s liens —
General Statutes §§ 49-17 and 49-33 - reasoning that the specific language therein “prevails]
over the requirements of statutes that are more general in their coverage”, such as § 47-10. Id.,
202. Section 49-33 provides that a mechanic’s lien can be foreclosed in the same manner as a

4

mortgage. Additionally, § 49-17 provides in relevant part: “When any mortgage is foreclosed by
the person entitled to receive the money secured thereby but to whom the legal title to the
mortgaged premises has never been conveyed, the title to such premises shall, upon the
expiration of the time limited for redemption and on failure of redemption, vest in him in the
same manner and to the same extent as such title would have vested in the mortagee if he had
foreclosed ...The court concluded that “ pursuant to [§ 49-17], a valid assignee of a
mortgage note has standing to foreclose irrespective of whether that assignee records the
assignment prior to instituting the action.” Astoria Federal Mortgage Corp. v. Genesis Ltd.
Partnership, supra, 167 Conn. App. 202.

The court stated that “[t] wo leading commentators on

Connecticut foreclosure actions have refined the principle codified in § 49-17: Although it
should be clear that the assignee of a mortgage deed cannot foreclose without prior compliance
with ... § 49-10 ... such is clearly not the situation with the assignee or holder of a mortgage
note." (Emphasis in original; internal quotation marks omitted.) Id., 202-203. Furthermore,
“the principle that the mortgage follows the note, or the debt, can be analogized to mechanic’s
liens for purposes of foreclosure standing.” Id., 204.
The Astoria court also looked at the definition of the term “conveyance” in § 47-10,
noting that, while not statutorily defined, “[i]n its most common usage [means a] transfer of title
to land from one person, or class of persons, to another by deed.” (Internal quotation marks
omitted.) Id., 197. A mortgage and assignment of mortgage have both been considered
“conveyances” under § 47-10 by our Supreme Court, under the rationale that “[t]he assignment
[of a mortgage] is in effect a conveyance of the land included in the mortgage.” (Internal
quotation marks omitted.) Id. The court concluded that the assignment of a mechanic’s lien is
not a “conveyance,” and therefore “noncompliance with the recording requirement of § 47-10 is

5

not fatal to a party’s standing to bring an action to foreclose a mechanic’s lien... [and] the
[trial] court... erred in its determination that the defendant lacked standing to bring its cross
claim by virtue of its failure to record the [assignment] prior to filing its cross claim.” Id., 195.
This court holds that the reasoning in Astoria equally applies to tax liens and, therefore,
ATCF’s noncompliance with the recording requirement of § 47-10 is not fatal to its standing. As
in Astoria, neither § 12-195h, nor Practice Book § 10-70, dealing specifically with tax liens,
specify that an assignment of a tax lien must be recorded. Thus, those specific guidelines prevail
over the more general recording requirement of § 47-10. In addition, the assignment of a tax
lien, like a mechanic’s lien, is more closely akin to a transfer of debt, not a transfer of legal title,
and, therefore, also does hot constitute a conveyance under § 47-10. The court notes that this
outcome, based on the current state of the law and relevant statutes, may result in land records
that are unclear; however, this does not change the result that ATCF, which has properly been
assigned the tax lien, is foreclosing on an otherwise valid debt incurred by the defendant.
/

The parties have stipulated to a foreclosure by sale if the motion to dismiss is denied. For
the reasons set forth in detail above, the motion to dismiss is denied, and judgment of foreclosure
by sale shall enter.
Therefore, the court enters a judgment of foreclosure by sale, with the following findings
that have been agreed to by the parties:

Debt: $61,264.03 as of 9/13/2018
Attorney’s Fees: $5,850.00
Total: $67,114.03
Appraisal Fee: $700.00

6

Title Search Fee: $225.00
Fair Market Value: $160,000.00
Land: $75,000.00
Improvements: $85,000.00

The court enters a sale date of March 9, 2019, with its standard orders.

MintzyJ.

7

ORDER 407901
DOCKET NO: DBDCV156017197S

SUPERIOR COURT

CHESWOLD (TL), LLC, BMO HARRIS
BANK, NA
V.
KWONG, MATTHEW J Et A1

JUDICIAL DISTRICT OF DANBURY
AT DANBURY
9/14/2018

ORDER
ORDER REGARDING:
09/14/2018 154.00 ORDER
The foregoing, having been considered by the Court, is hereby:
ORDER:
JUDGMENT OF FORECLOSURE BY SALE
Property Address: 9 BRADLEY LANE, SANDY HOOK, CT 06482
Defaults previously entered against all defendants.
Judgment of Foreclosure by Sale is hereby entered as follows:
Debt: $61,264.03 as of 9/13/2018
Attorney Fees: $5,850.00
Total: $67,114.03
Appraisal Fee: $700.00
Title Search Fee: $225.00
Fair Market Value: $160,000.00
Land: $75,000.00
Improvements: $85,000.00
The Sale Date is: Saturday, March 09, 2019
Terms of the Sale: 12:00 noon on the premises.
Deposit Amount: $16,000.00 Deposit to be paid by bank or certified check only.
Committee Appointed: JOHN JOSEPH BOWSER, 148 DEER HILL AVENUE, DANBURY, CT 06810
Ordered in accordance with the Statewide Standing Orders(JD-CV-79) and Uniform Procedures for
Foreclosure by Sale Matters(JD-CV-81).
Independent Appraiser: Lawrence Dartley, Bowley Moore Appraisal, 3255 Fairfield Ave, Bridgeport,
CT 06605
Return of Appraisal by: Wednesday, February 27, 2019
Deposit not required if Plaintiff is the successful bidder. The Plaintiff may submit a bid via fax.
No fees or expenses prior to: Wednesday, January 23, 2019
Sign to be posted no earlier than : Thursday, February 07, 2019
Sign to be posted no later than : Sunday, February 17, 2019
Cost not to exceed $350.00. Sign requirement is waived if the subject property is a condominium unit.
Publication in Danbury News Times on: 3/1/2019, 3/8/2019
Ad to be posted on Judicial Website.
DBDCV156017197S

9/14/2018

Page 1 of2

Judicial Notice was sent regarding this order and copy of order mailed to the Committee & Appraiser
407901
Judge: DOUGLAS C MINTZ
Processed by: Sandra Farr

i

I

DBDCV156017197S

9/14/2018

Page 2 of 2

f

SUPREME COURT
STATE OF CONNECTICUT

PSC-200112

l

CHESWOLD (TL), LLC, BMO HARRIS BANK, NA
v.
MATTHEW J. KWONG ET AL.
ORDER ON PETITION FOR CERTIFICATION TO APPEAL
The named defendant's petition for certification to appeal from the Appellate
Court, 196 Conn. App. 279 (AC 42221), is denied.

Matthew John Kwong, self-represented, in support of the petition.
David L. Gussak, in opposition.
Decided September 15, 2020
By the Court,
Is/
Rene L. Robertson
Assistant Clerk - Appellate

Notice Sent: September 16, 2020
Petition Filed: July 6, 2020
Clerk, Superior Court, DBD CV15-6017197-S
Hon. Douglas C. Mintz
Clerk, Appellate Court
Reporter of Judicial Decisions
Staff Attorneys’ Office
Counsel of Record

APPENDIX C

Page 1 of 1

>/'
DocID:

o02B52530003TVPe : LAN

Bk1062 «1091-1093
After_Rec_ording Return To:
Greene Law, PC
11 TaJcott Notch Road
Farmington, CT 06032

C

RETURN DATE: MAY 5,2015'

SUPERIOR COURT

CHESWOLD (TL), LLC, BMO
HARRIS BANK, NA

J.D, OF DANBURY

VS.

AT DANBURY

MATTHEW J. KWONG, CAPITAL
ONE BANK (USA) NA., PORTFOLIO
RECOVERY ASSOCIATES LLC

APRIL 2, 2015

NOTICE OF LIS PENDENS
Notice is hereby given of the pendency of a civil action between the above named parties
by complaint and summons thereon, dated April 2, 2015 and made returnable to the Superior
Court for the Judicial District of Danbury at Danbury on May 5, 2015, which action is brought to
foreclose Tax Lien from Cheswold (TL) LLC BMO Harris Bank, LLC dated May 24, 2011 in
Volume 988 at Page 438 as assigned to American Tax Funding, LLC by an Assignment of Filed
Tax Liens recorded in Volume 1000 at Page 154 of the Newtown Land Records. Said Tax lien
was further assigned to Cheswold (TL) LLC BMO Harris Bank, LLC by an Assignment of Tax
liens dated September 26, 2013 recorded in Volume 1039 at Page 1015 of the Newtown Land
Records. The Tax Lien from Cheswold (TL) LLC BMO Harris Bank, LLC dated May 23, 2012
in Volume 1009 at Page 823 as assigned to American Tax Funding, LLC by an Assignment of
Filed Tax Liens recorded in Volume 1026 at Page 1011 of the Newtown Land Records. Said Tax
lien was further assigned to Cheswold (TL) LLC BMO Harris Bank, LLC by an Assignment of
Tax liens dated September 26, 2013 recorded in Volume 1039 at Page 1015 of the Newtown
Land Records, The Tax Lien from Cheswold (TL) LLC BMO Harris Bank, LLC dated May 15,
2013 in Volume 1031 at Page 202 as assigned to American Tax Funding, LLC by an Assignment
Greene Law, P.C. | 11 Talcott Notch Road | Farmington, CT 06032
Tel: 860-676-1336 | Fax: 860-676-2250 | E-Service: service@greenelawpc.com

APPENDIX D

Volume; 1062 Page: 1091 Seq: 1

W"

<fS^.

'■
- '
...rs

-

-4rY
■

:

o

After Recording Return To:
Greene Law, PC
51 Talcott Notch Road
Farmington, CT 06032

RETURN DATE: MAY 5, 2015

SUPERIOR COURT

CHESWOLD (TL), LLC, BMO
HARRIS BANK, NA

J.D. OF DANBURY

VS.

AT DANBURY

MATTHEW J. KWGNG, CAPITAL
ONE BANK (USA) NA., PORTFOLIO
RECOVERY ASSOCIATES LLC

APRIL 2,2015

NOTICE OF LIS PENDENS
Notice is hereby given of the pendency of a civil action between the above named parties
d

by complaint and summons thereon, dated April 2,2015 and made returnable to the Superior
Court for the Judicial District of Danbury at Danbury on May 5, 2015, which action is brought to
foreclose Tax Lien from Cheswold (TL) LLC BMO Harris Bank, LLC dated May 24,2011 in
Volume 988 at Page 438 as assigned to American Tax Funding, LLC by an Assignment of Filed
Tax Liens recorded in Volume 1000 at Page 154 of the Newtown Land Records. Said Tax lien
was further assigned to Cheswold (TL) LLC BMO Harris Bank, LLC by an Assignment of Tax
liens dated September 26, 2013 recorded in Volume 1039 at Page 1015 of the Newtown Land
Records. The Tax Lien from Cheswold (TL) LLC BMO Harris Bank, LLC dated May 23, 2012
in Volume 1009 at Page 823 as assigned to American Tax Funding, LLC by an Assignment of
Filed Tax Liens recorded in Volume 1026 at Page 1011 of the Newtown Land Records. Said Tax
lien was further assigned to Cheswold (TL) LLC BMO Harris Bank, LLC by an Assignment of
Tax liens dated September 26, 2013 recorded in Volume 1039 at Page 1015 of .the Newtown
Land Records. The Tax Lien from Cheswold (TL) LLC BMO Harris Bank, LLC dated May 15,
2013 in Volume 1031 at Page 202 as assigned to American Tax Funding, LLC by an Assignment
Greene Law, P.C, | 11 Talcott Notch Road | Farmington, CT 06032
Tel: 860-676-1336 | Fax: 860-676-2250 | E-Service: service@greenelawpc.com

>
\

¥

of Filed Tax Liens recorded in Volume 1032 at Page 209 of the Newtown Land Records. Said
Tax lien was further assigned to Cheswold (TL) LLC BMO Harris Bank, LLC by an Assignment
of Tax liens dated September 26, 2013 recorded in Volume 1039 at Page 1015 of the Newtown
Land Records. The Tax Lien from Cheswold (TL) LLC BMO Harris Bank, LLC dated May 21,
2014 in Volume 1048 at Page 1042 as assigned to Cheswold (TL) LLC BMO Harris Bank, LLC
by an Assignment of Filed Tax liens recorded in Volume 1049 at Page 364 of the Newtown Land
Records. Such action specifically requests the following:
1.
2.
3.
4.
5.
6.

A foreclosure of said tax liens.
Immediate possession of the premises.
;
A deficiency judgment. No deficiency will be ,« ought against any person whose
obligation under the subject promissory note has been heretofore or hereafter
discharged in bankruptcy.
The appointment of a receiver to collect rents and profits accruing from the
premises.
Reasonable attorney's fees and costs.
Such other relief and further equitable relief as may be required.
The Premises is that certain real property with buildings thereon, situated in the Village

of Sandy Hook and Town of Newtown, County of Fairfield, and State of Connecticut, which is at
9 Bradley Lane, Newtown, Connecticut, more particularly bounded and described as set forth in
Exhibit A, attached hereto and incorporated by reference as if herein set forth verbatim.
Dated at Farmington, Connecticut,
RESPECTFULLY SUBMITTED
PLAINTIFF,

/its Attorney
11 Talcott Notch Road
Farmington, CT 06032
Juris No.: 428354
Greene Law, P.C. ( 11 Talcott Notch Road j Farmington, CT 06032
Tel: 860-676-1336 | Fax: 860-676-2250 1 E-Service: service@greenelawpc.com

1)^36

EXHIBIT A

ALL THAT CERTAIN piece, parcel or tract of land, together wife the buildings md
mftavemeats thereon, atuased m the Tom of Newtown, County of Fairfield and State of
Connecticut, and being the northwestern mast of the three parcels and the parcel shown -and
designated as 1.002 Ac. cm a certain rasp entitled, "Properly of Serena leech Half Way Rim'
District, Newtown, Cana/, on file and Numbered 3456 in the Newtown Town Clerk1* Office, md
premises see bowled:
NORTHWESTERLY:

195.51 feet by Bradley lane;

EASTERLY:

264.68 feet by tend ofJohn E. and Lucille A. Hiadruxa;

SOUTHERLY:

179.07 feet by land ofSerena S. Leech;

WESTERLY:

202.23 fees by land of Faraway Meadows, lac., all of Lie
aforementioned bounding owners being now or formerly.

The above described premises are all of the same premises conveyed to Willaid A. Meyer and
Martha W. Meyer by Glenn Paul Blake by Warranty Deed dated August 13,1970, and recorded in
the Newtown Land Records in Volume 219 at Page 575.

Greene Law, P.C. | 11 Talcott Notch Road [ Farmington, CT 06032
Tel: 860-676-1336 j Fax: 860-676-2250 | E-Service: service@greeneiawpc.com

1

Additional material
from this filing is
available in the
Clerk's Office.

